APPENDIX A
la
[ PUBLISHED]
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
No. 18-10417
D.C. Docket No. l:17-cv-04656-AT

W. A. GRIFFIN, MD,
Plaintiff - Appellant,
Versus
COCA-COLA REFRESHMENTS USA, INC.,
UNITED HEALTHCARE INSURANCE
COMPANY,
Defendants - Appellees,
No. 18-10418
D.C. Docket No. l:17-cv-04657-AT
W. A. GRIFFIN, MD,
Plaintiff - Appellant,
; versus
DELTA AIR LINES, INC.,
UNITED HEALTHCARE INSURANCE
COMPANY,
Defendants - Appellees,
Appeals from the United States District Court
for the Northern District of Georgia
(February 24, 2021)

2a
Before BRANCH and MARCUS, Circuit Judges, and
UNGARO,* District Judge. BRANCH, Circuit Judge:
Dr. Wakitha Griffin, a dermatologist in Atlanta,
Georgia, has filed many appeals in this Court in recent
years, all of which have involved her attempts to receive
in-network payments despite being an out-of-network
provider. Our other opinions have been unpublished; we
choose to publish today in hopes of resolving this
recurring litigation.
*The Honorable Ursula Ungaro, United States District Court for
the Southern District of Florida, sitting by designation.

3a
These consolidated appeals arise from Griffin’s
treatment of two patients who were insured under two
separate employee welfare benefit plans which are
administered by United Healthcare (“United”). The
Employee Retirement Income Security Act of 1974
(“ERISA”) covers both plans. Because Griffin does not
have a contract with United whereby she provides
services in exchange for reimbursement at a negotiated
rate, she is an out-of-network provider under both
plans. Generally, patients are reimbursed at lower
rates when receiving healthcare services from out-ofnetwork providers rather than in-network providers.
Eschewing a contractual relationship with United
and payment from her patients, Griffin instead
requested that the two patients assign their benefits
under their plans to her. They obliged. Griffin then
attempted to collect from United the same payment
that she would have received had she been an mnetwork provider. When United only paid her the
benefits she was entitled to as an out-of-network
provider, Griffin brought two separate lawsuits—one
against Coca-Cola Refreshments, Inc. (“Coca-Cola”) and
United and the other against Delta Air Lines, Inc.
(“Delta”) and United (collectively, “Defendants”)—
asserting various ERISA violations. The district court
dismissed both cases for failure to state a claim because
the plans’ anti-assignment clauses prevented Griffin
from obtaining statutory standing under ERISA to sue
on behalf of her patients. Griffin appealed both cases to
this Court.

4a
These consolidated appeals raise an unsettled issue
about whether an ERISA plan administrator or its
claims agent may waive its right to rely on an anti­
assignment provision in an ERISA-covered plan. We
need not reach that issue, however. Even assuming that
waiver is available in the ERISA context, Defendants
did not waive their ability to assert the anti-assignment
provisions as a defense. And regardless of waiver,
Griffin’s lawsuit still fails to state a claim: United paid
her in full, both under the terms of the patients’
assignments and the provisions of the healthcare plans.
We therefore affirm the district court’s orders.
Background
I.
Although these consolidated appeals implicate two
distinct health benefit plans, patients, and
assignments, the facts giving rise to Griffin’s claims in
each case are largely the same. A few years ago, Griffin
provided medical treatment for two patients: Patient
J.J., who was insured under the Coca-Cola Plan, and
Patient G.A., who was insured under the Delta Plan. i
United is the Coca-Cola Plan’s Claims Fiduciary and
the Delta Plan’s Claims Administrator. Under the
terms of both plans, Griffin is an “out of network”
physician. Generally, the plans reimburse the
beneficiary at a higher percentage when he visits an innetwork physician rather than an out-of-network
physician. For example, the Coca-Cola
i

The Coca-Cola Company Benefits Committee is the Coca-Cola
Plan Administrator and the Administrative Committee of Delta
Air Line, Inc. is the Delta Plan Administrator.

5a
Plan provides that when a beneficiary has an office visit
with an out-of-network physician, the plan pays 60
percent of the cost of service and the beneficiary pays
40 percent. By contrast, if the beneficiary has an office
visit with an in-network physician, the plan pays at
least 80 percent.
In exchange for medical treatment and in lieu of
payment, the two patients executed an assignment of
their plan benefits to Griffin. Both assignments are
identical. By signing, the patient acknowledges that the
document is “a direct legal assignment of my rights and
benefits under this policy and designation of authorized
representative”
and
“authorize^]
any
plan
administrator or fiduciary, insurer, and my attorney to
release to such providers) any and all plan documents.”
The assignment further provides that the patient has
assigned “all medical benefits and/or insurance
reimbursement, if any, otherwise payable to [the
patient] for services rendered from such provider(s),
regardless of such provider’s managed care network
participation status.”
Griffin believed that the assignments entitled her to
full payment for her services, as if she were an innetwork provider. She submitted claims to United,
which she alleges United only partially paid. Griffin
appealed United’s payment determinations. In her
appeals, Griffin made numerous requests, including: (1)
that United disclose the plan’s unambiguous anti­
assignment provision, should the plan have one; (2)
copies of the plan documents; and (3) the identification
of the Plan Administrator.

6a
United denied each appeal and responded directly to
the patients, copying Griffin on the communications. In
each appeal denial, United explained that Griffin was
not reimbursed the full amount of her charges because
of the relevant plan’s provisions regarding out-of­
network coverage and deductibles. United therefore
upheld the payment determinations and did not
address Griffin’s specific requests. Undeterred, Griffin
submitted second level appeals for both claims and
reiterated her requests. United again denied the
appeals without addressing Griffin’s requests.
After exhausting her administrative remedies,
Griffin, proceeding pro se, filed ...two complaints, in
Georgia state court: one against United and Coca-Cola,
for her treatment of Patient J.J., and the other against
United and Delta, for her treatment of Patient G.A. The
operative complaints are nearly identical and bring the
same four claims: failure to pay plan benefits under 29
U.S.C. § 1132 (Count 1), breach of fiduciary duty under
29 U.S.C. § 1104 (Count 2), failure to provide plan
documents under 29 U.S.C. §§ 1024(b), 1104, and
1132(2) (Count 3); and breach of co-fiduciary duties
under 29 U.S.C. § 1105(a)(2) (Count 4). Defendants
removed both lawsuits to the United States District
Court for the Northern District of Georgia and moved
to dismiss Griffin’s complaints for failure to state a
claim.

7a
Griffin was in familiar territory in the district court.
In the last four years, Griffin has filed more than two
dozen cases either directly in the Northern District of
Georgia or in state court that were later removed to that
district court.2 All involve Griffin seeking
reimbursement from health plans through her patients’
assignment of benefits.
2

See Griffin v. Blue Cross and Blue Shield Healthcare Plan of Ga.,
Inc., et al, No. 1:14- cv-1610-AT (N.D. Ga. filed May 28, 2014);
Griffin v. S. Co. Serve., Inc., No. l:15-cv-0115-AT (N.D. Ga. filed
Jan. 14, 2015); Griffin v. SunTrust Bank, Inc., No. l:15-cv-0147-AT
(N.D. Ga. filed Jan. 16, 2015); Griffin v. FOCUS Brands Inc., No.
l:15-cv-0170-AT (N.D. Ga. filed Jan. 20, 2015); Griffin v. Health
Sys. Mgmt., Inc., No. l:15-cv-0171-AT (N.D. Ga. filed Jan. 20,
2015); Griffin v. Lockheed Martin Corp., No. l:15-cv-0267-AT (N.D.
Ga. filed Jan. 28, 2015); Griffin v. Gen. Mills, Inc., No. l:15-cv0268-AT (N.D. Ga. filed Jan. 28, 2015); Griffin v.Oldcastle, Inc.,
No. l:15-cv-0269-AT (N.D. Ga. filed Jan 28, 2015); Griffin v.
Habitat for Humanity Inti, Inc., No. l:15-cv-0369-AT (N.D. Ga.
filed Jan 28, 2015); Griffin v. Verizon Commc’ns, Inc., No. l:15-cv0569-AT (N.D. Ga. filed Feb. 26, 2015); Griffin v. Humana
Employers Health Plan of Ga., Inc., No. l:15-cv-3574-AT (N.D. Ga.
filed Oct. 8, 2015); Griffinv. Aetna Health Inc., et al., No. l:15-cv3750-AT (N.D. Ga. filed Oct. 26,2015); Griffin v. Gen. Elec. Co., No.
l:15-cv-4439-AT (N.D. Ga. filed Dec. 22, 2015);

/

8a
Similar to her past claims, her allegations here focus on
United’s failure to disclose to her whether the plans had
anti-assignment provisions, even though she requested
them in her claim appeals. And because Defendants did
not provide her the plan documents containing those
provisions, Griffin’s complaints allege that they cannot
rely on them in defense of their lawsuit.
Griffin u. Navistar, Inc., No. l:16-cv-0190-AT (N.D. Ga. filed Jan.
21, 2016); Griffin v. Humana Employers Health Plan of Ga., Inc.,
No. l:16-cv-0245-AT (N.D. Ga. filed Jan. 26, 2016); Griffin v. CocaCola Enters., Inc., No. l:16-cv-0389-AT (N.D. Ga. filed Feb. 9,
2016); Griffin v. Sevatec, Inc., No. l:16-cv- 0390-AT (N.D. Ga. filed
Feb. 9, 2016);- Griffin-v, Cassidy-TurJ-ey- Com. Real-Estate- Serves,
Inc., No. l:16-cv-0496-AT (N.D. Ga. filed Feb. 17, 2016,); Griffin v.
Americold Logistics, LLC, No. l:16-cv-0497-AT (N.D. Ga. filed Feb.
17, 2016); Griffin v. Applied Indus. Techs., Inc., No. 1:16- cv-0552AT (N.D. Ga. filed Feb. 23, 2016); Griffin v. Areva, Inc., No. 1:16cv-0553-AT (N.D. Ga. filed Feb. 23, 2016); Griffin v. FOCUS
Brands, Inc., No. l:16-cv-0791-AT (N.D. Ga. filed Mar. 10, 2016);
Griffin u. Northside Hosp., Inc., No. l:16-cv-1934-AT (N.D. Ga.
filed June 10, 2016); Griffin v. Crestline Hotels & Resorts, LLC, No.
l:16-cv-2022-AT (N.D. Ga. filed June 16, 2016); Griffin v. Verizon
Commc’ns, Inc., No. l:16-cv-2639 (N.D. Ga. filed July 20, 2016);
Griffin v. RightChoice Managed Care, Inc., et al, No. l:16-cv-3102
(N.D. Ga. filed Aug. 23, 2016); Griffin v. Aetna Health Inc., et al,
No. l:17-cv-00077 (N.D. Ga. filed Jan. 6, 2017); Griffin v. United
Healthcare of Ga., Inc., et al, No. l:17-cv-4561-AT (N.D. Ga. filed
Nov. 13, 2017); Griffin v.Coca-Cola Refreshments USA, Inc., et al,
No. l:17-cv-4656-AT (N.D. Ga. filed Nov. 20, 2017). Griffin v. Delta
Air Lines, Inc., et al, No. l:17-cv-4657-AT (N.D. Ga. Nov. 20,2017).

9a
In their motions to dismiss Griffin’s complaints,
Defendants asserted that the plans’ anti-assignment
provisions rendered the assignment of benefits void.
The plans each contain anti-assignment provisions. 3
The Coca-Cola Plan provides:
9.02 Assignment. If applicable, an Enrolled Person
may authorize the Plan to directly pay the service
provider or hospital that provided the Enrolled Person’s
covered care and treatment. Except as provided in the
foregoing sentence, and subject to Section 9.06 of this
Plan relating to Qualified Medical Child Support
Orders, an Enrolled Person may not assign or alienate
any payment with respect to any Benefit which an
Enrolled Person is entitled to receive from the Plan, and
further, except as may be prescribed by law, no Benefits
shall be subject to attachment or garnishment of or for
an Enrolled Person’s debts or contracts, except for
recovery of overpayments made on an Enrolled Person’s
behalf by this Plan.
3 rm

The Coca-Cola Plan has two operative plan documents: the CocaCola Company Health and Welfare Benefits Plan (“Wrap
Document”) and the Summary Plan Descriptions and Benefit
Policies (“SPD”). The SPD is incorporated by reference into the
Plan through the Wrap Document. We refer to them together as
the “Coca-Cola Plan.”
The Delta Plan also has two operative plan documents: the
Account-Based Healthcare Plan (“Wrap Document”) and the
Summary Plan Descriptions and Benefit Policies (“SPD”). The SPD
is incorporated by reference into the Plan through the Wrap
Document. We refer to them together as the “Delta Plan.”

10a
Another section of the plan states, ‘‘While benefits
payable at any time may be used to make direct
payments to health care providers, no amount payable
at any time shall be subject in any matter to alienation
by assignment of any kind. Any attempt to assign any
such amount shall be void.” The Coca-Cola Plan further
provides that beneficiaries “may not assign any rights
or cause of action that [they] may have against a thirdparty to recover medical expenses without the express
written consent of the Plan Administrator.”
Similarly, the Delta Plan provides:
13.07 Anti-Alienation of Benefits. Except as required by
law, no benefit, payment or distribution under the Plan
shall be subject to the claim of any creditor of the
Participant, or to any legal process by any creditor of
the Participant, or to any legal process by any creditor
of the Participant, and the participant shall not have
any right to alienate, commute, anticipate or assign
(either at law or in equity) all or any portion of any
benefit, payment or distribution under the Plan except
to the extent provided herein; provided, however, a
Participant may make a voluntary and revocable
assignment, but only for such purposes as the
Administrative Committee may from time to time
specify.

11a
Another section of the plan states:
Except as required by law, no benefit, payment or
distribution under the plans will be subject to the claim
of any creditor of a participant, or to any legal process
by any creditor of the participant, and the participant
will not have any right to alienate, commute, anticipate
or assign all or any portion of any benefit, payment or
distribution under the plans.
However, a participant may make a voluntary and
revocable assignment, but only for such purposes as the
Plan Administrator may specify from time to time.
The district court dismissed both of Griffin’s
complaints for failure to state a claim. Regarding her
suit against Delta and United, the district court found
the Delta Plan’s anti-assignment provisions barred all
of Griffin’s claims. In its order dismissing the suit
against Coca-Cola and United, the district court
similarly found the Coca-Cola Plan’s anti-assignment
provisions indisputably barred Griffin’s claim for
payment under the plan (Count 1). The court also found
that, even if the language of the anti-assignment
provisions did not bar the remaining non-payment
claims (Counts 2, 3, and 4), the assignment itself did not
include the right to bring those non-payment claims.
Accordingly, she lacked derivative statutory standing to
bring those claims as well. The district court did not
address Griffin’s waiver arguments. Griffin appealed
the district court’s orders to this Court.

12a
Griffin presents three issues on appeal. First, did the
patients legally assign Griffin the right to bring the
breach of fiduciary duty and statutory penalties claims
(the “non-payment-related claims”) as well as benefit
claims? Second, do the anti- assignment provisions
apply to Griffin’s claims for underpayment of benefits
and/or the non-payment claims? Third, if they do apply
to some or all of the claims, are Defendants estopped
from relying on the anti-assignment provisions or have
they otherwise waived the right to assert them?
We appointed Griffin counsel sua sponte and set this
case for oral argument. After reviewing the record, the
parties’ briefs, and oral argument, we affirm the lower
court’s decisions.
II. Standard of Review and ERISA
The Court of Appeals reviews “de novo the district
court’s grant of a motion to dismiss under [Federal Rule
of Civil Procedure] 12(b)(6) for failure to state a claim,
accepting the allegations in the complaint as true and
construing them in the light most favorable to the
plaintiff.” Lanfear v. Home Depot, Inc., 679 F.3d 1267,
1275 (11th Cir. 2012) (quoting Ironworkers Local Union
68 v. AstraZeneca Pharm., LP, 634 F.3d 1352, 1359
(11th Cir. 2011)).

13a
ERISA, which governs this case, sets the minimum
standards for employee benefit plans, such as the
healthcare plans at issue here. See 29 U.S.C. §§ 1001,
1002. Section 502(a) of ERISA creates federal causes of
action for recovery of benefits under such plans. See 29
U.S.C. § 1132(a)(1)(B) (“A civil action may be brought.
• • by a participant or beneficiary ... to recover benefits
due to him under the terms of his plan, to enforce his
rights under the terms of the plan, or to clarify his
rights to future benefits under the terms of the plan[.]”).
ERISA also allows participants to bring actions under
section 502(a) against plan fiduciaries for breach of
fiduciary duty. 29 U.S.C. § 1104. In addition, section
405(a) of ERISA imposes co-fiduciary liability on all
plan fiduciaries in certain circumstances. Id..
§ 1105. Finally, ERISA requires plan administrators,
upon request, to provide plan information to
participants and allows for participants to seek
statutory penalties for a plan’s failure to do so. Id. §
1132(c)(1). Critically, to maintain an action under
ERISA, a plaintiff must have standing to sue under the
statute. Physicians Multispecialty Grp. v. Health Care
Plan of Horton Homes, Inc., 371 F.3d 1291, 1293-94
(11th Cir. 2004).4
4As used in this context, standing is not jurisdictional, Article III
standing, but rather the right to make a claim under the statute.
Physicians Multispecialty Grp. u. Health Care Plan of Horton
Homes, Inc., 371 F.3d 1291,1293-94 (11th Cir. 2004).

14a
In enacting ERISA, Congress broadly preempted
statelawrelatmg-to-emplQyee^Denefitplans.JVfackeyu.
Lanier Collection Agency & Serv., Inc., 486 U.S. 825,
829 (1988); see generally Pilot Life Ins. Co. v. Dedeaux,
481 U.S. 41 (1987). Where ERISA is silent on an issue,
Congress intended for courts to fashion a federal
common law governing employee benefit plans. Glass v.
United of Omaha Life Ins. Co., 33 F.3d 1341,1347 (11th
Cir. 1994). We have explained the process for
determining federal common law under ERISA:
To decide whether a particular rule should become part
of ERISA’s common law, courts must examine whether
the rule, if adopted, would further ERISA’s scheme and
goals ... ERISA has two central goals: (l)protection of
the interests of employees and their beneficiaries in
employee benefit plans; and (2) uniformity in the
administration of employee benefit plans.
Horton v. Reliance Standard Life Ins. Co., 141 F.3d
1038, 1041 (11th Cir. 1998). When tasked with shaping
federal common law in the ERISA context, this Court
has explicitly relied on rules found in the Restatement
of Contracts, see, e.g., Turner v. Am. Fed’n of Teachers
Local 1565, 138 F.3d 878, 882 (11th Cir. 1998), and
state law, see, e.g., Tippit v. Reliance Standard Life Ins.
Co., 457 F.3d 1227,1235 (11th Cir. 2006) (usingGeorgia
law to interpret ambiguous plan).

15a
III. Analysis
a. The Scope of the Patients’ Assignments
We first determine the scope of the patients’
assignments to Griffin— whether they purport to give
her the right to bring both payment and non-payment
(breach of fiduciary duties and statutory penalties)
claims.
To maintain an action under ERISA, a plaintiff must
have statutory standing. ERISA limits the right to sue
for plan participants, plan beneficiaries, plan
fiduciaries, and the Secretary of Labor. 29 U.S.C. §
1132(a). “Healthcare providers . . . are generally not
‘participants’ or ‘beneficiaries’ under ERISA.”
Physicians Multispecialty Grp., 371 F.3d at 1294. Still,
an assignee may obtain derivative standing for
payment of medical benefits through a written
assignment from a plan participant or beneficiary. See
Gables Ins. Recovery, Inc. v. Blue Cross & Blue Shield
of Fla., Inc., 813 F.3d 1333, 1339 (11th Cir. 2015).5
In this case, no party doubts that the assignments’
language purports to convey to Griffin a right to bring
the claim for unpaid benefits. But Griffin argues that
the patients assigned all their rights—including the
right to bring fiduciary and statutory penalty claims—
under the plans because the assignments state: “This
is a direct legal assignment of my rights and benefits
under the policy.” That sentence, Griffin claims, is
enough to transfer the participant’s right to bring
claims both for unpaid payments and non-payment
related claims.
5 For the reasons discussed herein, we need not decide whether
the assignment of nonpayment claims provides derivative
standing.

16a
In numerous unpublished decisions, we have
rejected similar claims (all made by Griffin) regarding__
the assignment of the right to bring non-payment
claims like those in Counts 2, 3, and 4. See, e.g., Griffin
v. SunTrust Bank Inc., 648 F. App’x 962, 967 (11th Cir.
2016) (“Nothing in an assignment of benefits transfers
the patient’s right to bring a cause of action” for similar
non-payment- related claims.); Griffin v. Health Sys.
Mgmt. Inc, 635 F. App’x 768, 772 n.4 (11th Cir. 2015).
Griffin argues that these prior decisions only examine
particular lines in the assignment, and we have not
considered the exact language she points to in this
appeal. Because the language Griffin relies on in this
appeal assigns both “rights and benefits under the
policy,” Griffin claims, it expressly assigns the right to
bring both payment and non-payment-related claims.
Even assuming this “rights and benefits” language
evinces the assignment of two distinct rights—the right
to bring claims for both payment and non-payment—
the assignments themselves contradict Griffin’s
argument. The general form assignments on which
Griffin relies contain 10 separately listed paragraphs
outlining the scope of the assignments. The patients
checked the box next to each one. None of the
paragraphs mention breach of fiduciary duty or
statutory penalty claims. Rather, they provide the
details of Griffin’s “right” to receive the patients’
“medical information” and “payment of benefits” under
the Plan. Therefore, the assignments make clear that
the patients only assigned their right to bring claims for
payment pursuant to 29 U.S.C. § 1132. Accordingly, the
district court was correct to dismiss Griffin’s non­
payment claims.

17a
b. The Plans’ Anti-Assignment Provisions
L Applicability to Griffin’s Payment Claim
We next turn to whether Griffin’s payment claim
survives the language of the plans’ anti-assignment
provisions. We find that her payment claim does not.
We have held that “an unambiguous anti­
assignment provision in an ERISA- governed welfare
benefit plan is valid and enforceable” against
healthcare providers. Physicians Multispecialty Grp.,
371 F.3d at 1296. The anti-assignment language in the
plans at issue is unambiguous and thus enforceable.
The Coca- Cola Plan says a participant “may not assign
or alienate any payment with respect to any Benefit,”
and “no amount payable at any time shall be subject in
any matter to alienation by assignment of any kind.
Any attempt to assign any such amount shall be void.”
Similarly, the Delta Plan provides that “the participant
shall not have any right to alienate, commute,
anticipate or assign (either at law or in equity) all or
any portion of any benefit, payment or distribution
under the Plan.” And another provision similarly
states: “the participant will not have any right to
alienate, commute, anticipate or assign all or any
portion of any benefit, payment or distribution under
the plans.” On their face, these provisions restrict a
patient’s ability to assign his rights and therefore bar
Griffin’s claims.

18a
In fact, Griffin “recognizes the weight of authority
from this Court affirming the dismissals of several
cases filed by Dr. Griffin based on the application of
anti- assignment provisions to similar claims brought
by Dr. Griffin under ERISA for unpaid benefits.” But
she urges this Court to reverse course and follow the
Fifth Circuit’s lead in its 1992 opinion in Hermann
Hospital v. MEBA Medical and Benefits Plan, 959 F.2d
569 (5th Cir. 1992), overruled in part on other grounds
by Access Mediquip, L.L.C. v. United Healthcare
Insurance Co., 698 F.3d 229, 230 (5th Cir. 2012) (en
banc).
In Hermann> the Fifth Circuit held that the
defendant plan’s anti-assignment provisions were
unenforceable against a healthcare provider. The
patient in that case assigned “all rights, title and
interest in the benefits payable for services rendered by
the [healthcare provider]” to the provider-plaintiff. Id.
at 571. The anti-assignment provision at issue stated:
No employee, dependent or beneficiary shall have the
right to assign, alienate, transfer, sell, hypothecate,
mortgage, encumber, pledge, commute, or anticipate
any benefit payment hereunder, and any such payment
shall not be subject to any legal process to levy
execution upon or attachment or garnishment
proceedings against for the payment of any claims.

19a
Id. at 574. The Fifth Circuit held that the anti­
assignment clause did not, by its terms, void the
assignment to the provider because it did not
explicitly cover healthcare providers. Id. at 575. The
court found it would be inequitable to prevent
providers from recovering for the services they
rendered unless the participants first sued the plan
and the provider then sued the participants. Id.
Thus, Griffin claims that this Court should find the
Coca-Cola Plan’s and Delta Plan’s anti-assignment
provisions do not bar the assignments because she
received the assignment in her capacity as a
healthcare provider.
But Griffin effectively asks this Court to
invalidate an unambiguous contract provision
which is valid and enforceable under our precedent
based on the policy preferences of another circuit.
We cannot depart from our precedent. See Wilson v.
Taylor, 658 F.2d 1021, 1034 (5th Cir. May 1, 1981)
(“It is the firm rule of this circuit that we cannot
disregard the precedent set by a prior panel, even
though we perceive error in the precedent. Absent
an intervening Supreme Court decision which
changes the law, only the en banc court can make
the change.”). Thus, if nothing else prevents
Defendants from relying on the anti-assignment
provisions in this litigation, the provisions bar
Griffin’s claims for unpaid benefits.

20a
ii. Void v. Voidable
Before we turn to Griffin’s remaining arguments
as to why Defendants either waived or are estopped
from relying on these anti-assignment provisions,
we must address an often-overlooked threshold
issue: whether the anti-assignment provisions
make the assignments void or voidable. 6 If the
assignments are void ab initio then there is no need
to proceed to the equitable claims because each
assignment is inherently null. On the other hand, if
the assignments are merely voidable, then they are
effective unless and until they are challenged. See,
e.g., Pitts ex rel. Pitts v. Am. Sec. Life Ins. Co., 931
F.2d 351, 356 (5th Cir. 1991) (discussing
consequences of determining whether insurance
policy was void rather than voidable). Estoppel and
waiver would only be available defenses to a
voidable anti-assignment clause.

6 Black’s Law Dictionary defines ‘Void” as “[o]f no legal effect;
to null.” Void, Black’s Law Dictionary (11th ed. 2019).
Something that is ‘Void ab initio” is “[njull from the beginning,
as from the first moment when a contract is entered into. A
contract is void ab initio if it seriously offends law or public
policy, in contrast to a contract that is merely voidable at the
election of one party to the contract.” Id. The term “voidable”
is defined as “[vjalid until annulled,” that is, “capable of being
affirmed or rejected at the option of one of the parties.”
Voidable, Black’s Law Dictionary (11th ed. 2019).

21a
As discussed above, federal courts fill in the gaps
Congress left in ERISA with federal common law.
Glass, 33 F.3d at 1347. ERISA itself does not give
an answer to the issue of void versus voidable. Nor
have the parties addressed it. And federal courts
have not discussed the distinction between void and
voidable in the ERISA context. Courts sometimes
even use these concepts interchangeably.7
Absent other guidance, we may look to the
applicable state law to fill in ERISA’s gaps. Glass,
33 F.3d at 1347. The Georgia Code renders as void:
(1) contracts to do immoral or illegal things, (2)
contracts against public policy, and (3) gambling
contracts. O.C.G.A. §§ 13-8-1, 13-8-2, 13-8-3. This
definition comports with our century-old precedent:
in 1906, the former Fifth Circuit explained:

7 «

[Cjourts have lamented that ‘[tjhe distinction between void
and voidable is not as distinctly defined as could be wished.’
As a result, ‘[cjourts have used the words “void,” ‘Voidable,”
“invalid,” and “unenforceable” imprecisely’ or even
interchangeably.” Jesse A. Schaefer, Beyond a Definition:
Understanding the Nature of Void and Voidable Contracts, 33
CAMPBELL L. REV. 193, 194 (2010) (quoting Arnold v.
Fuller’s Heirs, 1 Ohio 458, 467 (Ohio 1824) and Daugherty v.
Kessler, 286 A.2d 95, 97 (Md. 1972)). This confusion is noted
in Black’s Law Dictionary: “the word [void] is often used and
construed as bearing the more liberal meaning of Voidable.”’
Void, Black’s Law Dictionary (11th ed. 2019).

22a

The distinction between ‘void’ and ‘voidable’ in their
application to contracts is sometimes one of
practical importance. A transaction may be void as
to one party, and not as to another. When entire
technical accuracy is desired, the term ‘void’ can
only be properly applied to those contracts that are
of no effect whatsoever, ... or in contravention of
that which the law requires, and therefore
incapable of confirmation or ratification.
Haggart v. Wilczinski, 143 F. 22, 27 (5th Cir. 1906).
The assignments here are not illegal. Nor do they
contravene public policy. See Cagle v. Bruner, 112

F.3d 1510, 1515 (11th Cir. 1997) (“[Neither §
1132(a) nor any other ERISA provision prevents
derivative standing based upon an assignment of
rights[.]”). And they have nothing to do with
gambling. Accordingly, the assignments here are
merely voidable rather than void ab initio and thus
are enforceable unless and until Defendants raise
the anti-assignment provisions. To put it another
way, the existence of those provisions did not
automatically nullify the assignments, and thus
equitable doctrines are available. Having said all
that, we can turn to Griffin’s waiver and estoppel
arguments.

23a
c. Waiver
Griffin argues that Defendants waived their
right to rely on the anti- assignment provisions
because they did not alert her to their existence
prior to litigation. We disagree.
‘Waiver is
the
voluntary,
intentional
relinquishment of a known right.” Glass, 33 F.3d at
1347; see also Pitts, 931 F.2d at 357; Appleman,
Insurance Law and Practice, § 9251, at 488-89
(1981). Waiver can be express or implied from
conduct. In re Garfinkle, 672 F.2d 1340, 1347 (11th
Cir. 1982). “Where a party alleges an implied
waiver, ‘the acts, conduct, or circumstances relied
upon to show waiver must make out a clear case”’ of
intentional relinquishment. Witt v. Metro Life Ins.
Co., 772 F.3d 1269, 1279 (11th Cir. 2014) (quoting
In re Garfinkle, 672
F.2d at 1347).
Because ERISA does not address waiver, courts
have fashioned federal common law to address
cases where a defendant relies on a contractual
provision to defeat a claim. But various circuits
have approached the problem differently. For
example, the Fourth Circuit considers waiver to be
a “prohibited concept” with respect to ERISA.
Gagliano v. Reliance Standard Life Ins. Co., 547
F.3d 230, 239 (4th Cir. 2008). Other circuits have
reached the opposite conclusion. See, e.g. Glista v.
XJnum Life Ins. Co. of America, 378 F.3d 113, 132
(1st Cir. 2004) (insurance company waived its right
to raise a policy’s clause for the first time in
litigation). This circuit has “left open the question of
whether waiver principles might apply under the
federal common law in the ERISA context,” Witt,
772 F.3d at 1279, and we do so again today because
we need not decide it.

24a
Even if the doctrine applies in the ERISA
context, waiver would not be available under the
facts of this case. None of the Defendants expressly
relinquished its right to assert the anti-assignment
clauses in litigation. And Griffin does not allege any
acts that would indicate they intentionally did so.
Boiled down, Griffin alleges that defendants
ignored her pre-litigation requests for plan
documents and any anti-assignment provisions, if
they existed. Evidence that an insurance plan’s
claims administrator ignored a third party’s pre­
litigation request for information about a contract
with another party, without more, is insufficient to
show that the claims administrator or provider
voluntarily or intentionally abandoned a
contractual defense to litigation. Thus, even if
waiver applied, Griffin’s allegations are insufficient
to establish that the Defendants waived the anti­
assignment provisions,
d. Estoppel
As an alternative to her waiver claim, Griffin
argues that Defendants are equitably estopped from
relying on the anti-assignment provisions because
they did not respond to her pre-litigation inquiries
as to whether the Coca-Cola Plan and the Delta
Plan contained such provisions.
In the ERISA context, equitable estoppel applies
when “the plaintiff can show that (1) the relevant
provisions of the plan at issue are ambiguous, and
(2) the plan provider or administrator has made
representations to the plaintiff that constitute an
informal interpretation of ambiguity.” Jones v. Am.
Gen. Life & Ace. Ins. Co., 370 F.3d 1065,1069 (11th
Cir. 2004). Equitable estoppel in the ERISA context
is “very narrow.” Id.

25a
The anti-assignments provisions in the two
plans at issue here are not ambiguous. Even if they
were, Griffin does not submit any evidence, or even
allege, that Coca-Cola, Delta, or United made any
representation to Griffin that informally
interpreted the provision. A straightforward
application of the narrow ERISA estoppel doctrine
compels this Court to find that Griffin cannot turn
to it here.
Griffin asks this Court to rely on the Fifth
Circuit’s decision in Hermann and the Sixth
Circuit’s dicta in Sprague v. Gen. Motors Corp., 133
F.3d 388, 404 (6th Cir. 1998) to find that equitable
estoppel’s ambiguity requirement does not apply to
Griffin. We are unpersuaded. In Hermann, the Fifth
Circuit held that the defendant was estopped from
asserting that the anti-assignment clause applied
because Hermann, the medical provider, “was not
privy to” the plan documents and it was the
defendant plan’s “responsibility to notify Hermann”
of the anti- assignment clause. 959 F.2d at 574.
Similarly, in Sprague, the Sixth Circuit observed
that the party asserting estoppel’s reliance “can
seldom, if ever, be reasonable or justifiable if it is
inconsistent with the clear and unambiguous terms
of the plan documents available to or furnished to
the party.” 133 F.3d at 404 (emphasis added). But
the facts of Hermann differ from the facts here.

26a
In that case, the payor repeatedly made false
representations to the provider. See Hermann, 959 F.2d
at 574. And in Sprague, the Sixth Circuit clarified that
in order to assert an estoppel claim, “there must be
conduct or language amounting to a representation of a
material fact.” 133 F.3d at 403. Here, none of the
Defendants made any representations directly to the
provider: they communicated with the beneficiaries and
copied Griffin on the communications. And while
United did not provide Griffin with the requested
information, neither did it lie to her.
Further, Griffin’s estoppel argument is foreclosed by
our precedent. In the years following Herman and
Sprague, this Court has never disregarded the
ambiguity requirement. See, e.g., Jones, 370 F.3a at
1070 (“[W]hether proceeding on a breach of contract or
equitable estoppel theory, an ERISA plaintiff can only
succeed ... if he can establish that the plan at issue is
at least ambiguous with respect to the relevant benefits
for which he claims entitlement.”).

27a
And, in the past five years, we have addressed Griffin’s
estoppel argument in a series of unpublished decisions
relating to similar claims based on similar facts. Each
time, we held that equitable estoppel does not apply.
See Griffin v. United Healthcare of Ga., Inc., 754 F.
App’x 793, 797 (11th Cir. 2018) (“[Efouitable estoppel
cannot apply” where plan documents were not
provided); Griffin v. Coca-Cola EntersInc., 686 F.
App’x 820, 822 (11th Cir. 2017) (same); Griffin v.
Habitat for Humanity Int% Inc., 641 F. App’x 927, 932
(11th Cir. 2016) (same); Griffin v.Verizon Commons,
Inc., 641 F. App’x 869, 874 (11th Cir. 2016) (same);
Griffin v.S. Co. Servs., 635 F. App’x 789, 795 (11th Cir.
2015) (same); Griffin v. Focus Brands, Inc., 635 F. App’x
796, 801 (11th Cir. 2015) (same); Griffin v. Health Sys.
Mgmt., Inc., 635 F. App’x 768, 773 (11th Cir. 2015)
(same). A decades-old case from another circuit does not
disturb that conclusion. Equitable estoppel does not
prevent plan administrators or claims fiduciaries from
relying on anti-assignment provisions simply because
they did not alert the provider of such provisions.
In sum, although the assignments gave Griffin
statutory standing pursuant to ERISA to bring claims
for payment for the services she provided, the
Defendants’ anti-assignment provisions made the
assignments voidable. Even assuming waiver is
available in the ERISA context, Defendants did not
waive their ability to assert the anti-assignment
provisions when Griffin filed claims against them.
Neither does estoppel aid Griffin in avoiding the effect
of the anti-assignment provisions. Therefore, the anti­
assignment provisions deprived Griffin of her ability to
bring these ERISA claims.

28a
f. Failure to State a Claim
We make a final observation about Griffin’s claims
before concluding. Assuming, arguendo, that
Defendants’ plans did not have enforceable anti­
assignment provisions and Griffin had statutory
standing to bring claims for payment pursuant to
ERISA, Griffin would still fail to state a claim because
she is not entitled to any more compensation than she
already received.
Recall that each assignment at issue is “a direct legal
assignment of [the patient’s] rights and benefits under
this
policy
and designation
of authorized
representative.” They also state:
In considering the amount of medical expenses to be
incurred, I, [the patient], have insurance and/or
employee health care benefits coverage, and hereby
assign and convey directly to the above named
healthcare provider(s), as my designated Authorized
Representative(s), all medical benefits and/or
insurance reimbursement, if any, otherwise payable to
me for services rendered from such provider(s),
regardless of such provider’s managed care network
participation status.

29a
Griffin’s “managed care network participation status” is
critical. The patients visited an out-of-network
provider—Griffin. Had they paid Griffin out of pocket
and filed a claim for reimbursement with United,
United would have been obligated to reimburse the
patients according to their policies for out of network
providers. That analysis does not change simply
because the patient assigned the payments to Griffin. 8
Because the patients have no right to full
reimbursement for the charged services, neither does
Griffin. The assignment changes nothing.
Either way, Griffin does not have a claim against
Defendants.
We therefore AFFIRM the district court’s orders.

8

For example, Griffin charged Patient J.J. $129.96 for the office
visit. Patient J.J.’s plan covered 60 percent of that charge.
Therefore, United directly paid Griffin $77.98. United paid Griffin
exactly what it would have paid the Patient J.J. if that patient had
followed the process above.

APPENDIX B
lb
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA ATLANTA DIVISION

W. A. GRIFFIN, MD
Plaintiff,
v.
UNITED HEALTHCARE OF
GEORGIA, INC., et .al,
Defendants.
CIVIL ACTION NO. 1:17-CV-4561-AT

ORDER
This action arises under the Employee Retirement
Income Security Act (“ERISA”), 29 U.S.C. 1001 et seq.
It is before the Court on Defendant Viking Range, LLC’s
(Viking ) Motion to Dismiss [Doc. 8] and Defendant
United Healthcare of Georgia, Inc.’s (“UHG”) Motion to
Dismiss [Doc. 9].
Plaintiff W.A. Griffin, MD (“Dr. Griffin”) is a medical
provider in Atlanta, Georgia. Over the last four years,
she has filed more than two dozen cases either directly
in this Court or in state court that were later removed to
this Court. These cases arise from Dr. Griffin’s
treatment of patients and her attempts to get properly
reimbursed by the patients’ health plans.1
1 See Griffin v. Blue Cross and Blue Shield Healthcare Plan of Ga.,
Inc., et al, No. l:14-cv-1610-AT (N.D. Ga. filed May 28, 2014);
Griffin v. S. Co. Servs., Inc., No. l:15-cv-0115-AT (N.D. Ga. filed
Jan. 14, 2015); Griffin v. SunTrust Bank, Inc., No. l:15-cv-0147-AT
(N.D. Ga. filed Jan. 16, 2015); Griffin v. FOCUS Brands Inc., No.
l:15-cv-0170-AT (N.D. Ga. filed Jan. 20, 2015); Griffin v. Health
Sys. Mgmt., Inc., No. l:15-cv-0171-AT (N.D. Ga. filed Jan. 20,
2015); Griffin v.

\
3b
In the present case, Dr. Griffin brings four different
ERISA claims against Viking and UHG arising from
her treatment of “Patient E.V.” in November 2012.
(Amended Complaint, Doc. 2
20-21.) Her four claims
include: failure to pay plan benefits under 29 U.S.C. §
1132 (Count 1); breach of fiduciary duty under 29
U.S.C. § 1104 (Count 2); failure to produce plan
documents under 29 U.S.C. §§ 1024(b), 1104, and
11332(2) (Count 3); and breach of co-fiduciary duties
under 29 U.S.C. § 1105(a)(2) (Count 4).
As Defendants point out in their motions to dismiss, the
Court has already dismissed these same sorts of ERISA
claims against other defendants due to a clear and
unambiguous anti-assignment provision. Here, the
health plan’s Certificate of Coverage states as follows:
Lockheed Martin Corp., No. l:15-cv-0267-AT (N.D. Ga. filed Jan.
28, 2015); Griffin v. Gen. Mills, Inc., No. l:15-cv-0268-AT (N.D. Ga.
filed Jan. 28, 2015); Griffin u. Oldcastle, Inc., No. l:15-cv-0269-AT
(N.D. Ga. filed Jan 28, 2015); Griffin v. Habitat for Humanity Inti,
Inc., No. l:15-cv-0369-AT (N.D. Ga. filed Jan 28, 2015); Griffin v.
Verizon Commc’ns, Inc., No. l:15-cv-0569-AT (N.D. Ga. filed Feb.
26, 2015); Griffin v. Humana Employers Health Plan of Ga., Inc.,
No. l:15-cv-3574-AT (N.D. Ga. filed Oct. 8, 2015); Griffin v. Aetna
Health Inc. et al, No. l:15-cv-3750-AT (N.D. Ga. filed Oct. 26,
2015); Griffin v. General Electric Co., No. l:15-cv-4439-AT (N.D.
Ga. filed Dec. 22, 2015); Griffin v. Navistar, Inc., No. l:16-cv-0190AT (N.D. Ga. filed Jan. 21, 2016); Griffin v. Humana Employers
Health Plan of Georgia, Inc., No. l:16-cv-0245-AT (N.D. Ga. filed
Jan. 26, 2016); Griffin v. Coca-Cola Enterprises, Inc., No. l:16-cv0389-AT (N.D. Ga. filed Feb. 9, 2016); Griffin v. Sevatec, Inc., No.
l:16-cv-0390-AT (N.D. Ga. filed Feb. 9, 2016); Griffin v. Cassidy
Turley Commercial Real Estate Services, Inc., No. l:16-cv-0496-AT
(N.D. Ga. filed Feb. 17, 2016); Griffin v. Americold Logistics, LLC,
No. l:16-cv-0497-AT (N.D. Ga. filed Feb. 17, 2016); Griffin u.
Applied Industrial Technologies, Inc., No. l:16-cv-0552-AT (N.D.
Ga. filed Feb. 23, 2016); Griffin v. Areva, Inc., No. l:16-cv-0553-AT
(N.D. Ga. filed Feb. 23, 2016); Griffin v. FOCUS Brands, Inc., No.
l:16-cv-0791-AT(N.D. Ga. filed Mar. 10,2016); Griffin v. Northside
Hospital, Inc., No. l:16-cv-1934-AT (N.D. Ga. filed June 10, 2016);
Griffin v. Crestline

Payment of Benefits
You may not assign your Benefits under the Policy to a
non-Preferred provider without our consent. When an
assignment is not obtained, we will send the
reimbursement directly to you (the Subscriber) for you
to reimburse them upon receipt of their bill. We may,
however, in our discretion, pay a non-Preferred
provider directly for services rendered to you. In the
case of any such assignment of Benefits or payment to
a non-Preferred provider, we reserve the right to offset
Benefits to be paid to the provider by any amounts that
the provider owes us.

Hotels & Resorts, LLC, No. l:16-cv-2022-AT (N.D. Ga. filed June
16, 2016); Griffin v. Verizon Communications, Inc., No. l:16-cv2639 (N.D. Ga. filed July 20, 2016); Griffin v. RightChoice
Managed Care, Inc. et al, No. l:16-cv-3102 (N.D. Ga. filed Aug. 23,
2016); Griffin u. Aetna Health Inc. et al, No. l:17-cv-00077 (N.D.
Ga. filed Jan. 6, 2017); Griffin v. Coca-Cola Refreshments USA, Inc.
etal, No. l:17-cv-4656-AT (N.D. Ga. filed Nov. 20, 2017); Griffin v.
Delta Air Lines, Inc. et al, No. l:17-cv-4657-AT (N.D. Ga. Nov 20
2017).

5b
(Certificate of Coverage, Doc. 8-2 at 93.)2 This anti­
assignment provision clearly applies to Dr. Griffin's
Count 1 against Defendants for their failure to pay plan
“benefitsTlPlaintiff merely alleges that-she 'requires
patients to assign his or her health insurance benefits
and rights to sue” and that she “received an assignment
of benefits for every claim at issue in this litigation.”
(Amended Complaint, Doc. 2 f 3.) Notably, she does not
allege that Defendants provided consent for such an
assignment. Thus, Plaintiff’s Count 1 is barred by the
anti-assignment provision.
20n a motion to dismiss, the Court accepts the well-pleaded
allegations in the Amended Complaint as true and views them in
the light most favorable to Dr. Griffin. The Court also considers the
health plan’s Certificate of Coverage (attached to Defendants’
Motions to Dismiss) and Dr. Griffin’s assignment agreements with
Patient E.V. (attached to Plaintiff’s Responses), as these
documents are central to the Amended Complaint and their
contents are not in dispute. See Harris u. Iuax Carp., 182 F.3d 799,
802 n. 2 (11th Cir. 1999).

It is less clear whether the anti-assignment provision appearing under the heading “Payment of Benefits” applies to Dr. Griffin’s other non-payment-related
claims (i.e. Counts 2, 3, and 4). Yet even if the anti­
assignment provision does not bar these other claims,
Plaintiffs original assignment agreement, dated
August 8, 2012, does not include the right to bring such
claims. (See Doc. 13, Ex. A at 7; Doc. 14, Ex. A at 7.)
Plaintiff cannot sue for these claims under ERISA since
Patient E.V. never assigned her the right to do so. See,
e.g., Griffin v. Verizon Commc’ns, Inc., 641 F. App’x 869,
873 n.l (11th Cir. 2016) (“[T]he assignments contained
no provision transferring the insureds’ right to assert
claims for breach of fiduciary duty or civil penalties.
Because the insureds never assigned to Dr. Griffin the
right to bring such claims, she lacks derivative standing
to bring these claims under section 502 of ERISA.”).
Count 1 is therefore dismissed.
Additionally, Plaintiff cannot rely on a retroactive
assignment of benefits to save Counts 2, 3, and 4.
Plaintiff attached to her Responses an updated
assignment agreement, dated June 8, 2016, stating that
Patient E.V. assigns Plaintiff the right to bring claims
not only for payment but also for statutory penalties,
etc. (See Doc. 13, Ex. B; Doc. 14, Ex. B.) Plaintiff argues
that the updated assignment agreement retroactively
applies to her original assignment agreement, and
therefore she has the right to

7b
bring Counts 2, 3, and 4 in this action. However, Defendants
correctlylidte tliat7“[a]ithoug}rGeorgia“law allows contracts'"
to have retroactive effect between the parties to the contract,
the retroactive date is not effective against third parties to
the agreement.” Minnifield v. Johnson & Freedman, LLC,
448 F. App’x 914, 916 (11th Cir. 2011). Neither Defendant is
a party to the updated assignment agreement between
Plaintiff and Patient E.V., meaning Defendants are third
parties to the agreement. Thus, Plaintiffs updated
assignment agreement does not take retroactive effect
against Defendants, and she does not have a valid
assignment ofthe right to bring Counts 2, 3, and 4 against
them. These remaining three claims are dismissed as well.
For the reasons stated above, the Court GRANTS
Defendants’ Motions to Dismiss [Docs. 8, 9]. This case is
DISMISSED, and the Clerk is DIRECTED to close the
case.
IT IS SO ORDERED this 28th day of December, 2017.
s/Amy Totenberg
United States District Judge

Case l:17-cv-04656-AT Document 10 Filed 01/02/18 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
W. A. GRIFFIN, MD
CIVIL ACTION FILE

Plaintiff,
vs.

NO. 1:17-cv-4656-AT

COCA-COLA REFRESHMENTS USA, INC.
and UNITED HEALTHCARE INSURANCE
COMPANY,
Defendants.

JUDGMENT

This action having come before the Court, the Honorable Amy Totenberg, United States
District Judge, for consideration of the defendants' motion to dismiss, and the Court having
granted said motion, it is
Ordered and Adjudged that this civil action is DISMISSED.

Dated at Atlanta, Georgia, this 2nd day of January, 2018.

JAMES N. HATTEN
CLERK OF COURT
By:

Prepared and Entered
in the Clerk's Office
January 2, 2018
James N. Hatten
Clerk of Court
Bv: s/ James Jarvis
Deputy Clerk

s/ James Jarvis
Deputy Clerk

Case l:17-cv-04656-AT Document 9 Filed 01/02/18 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
W. A. GRIFFIN, MD,
Plaintiff,
v.

CIVIL ACTION NO.
i:i7-CV-4656-AT

COCA-COLA REFRESHMENTS USA,
INC., etal,
Defendants.
ORDER
This action arises under the Employee Retirement Income Security Act
(“ERISA”), 29 U.S.C. 1001 et seq. It is before the Court on Defendants’ Motion to
Dismiss Plaintiffs Amended Complaint [Doc. 3].
Plaintiff W.A. Griffin, MD (“Dr. Griffin”) is a medical provider in Atlanta,
Georgia. Over the last four years, she has filed more than two dozen cases either
directly in this Court or in state court that were later removed to this Court.
These cases arise from Dr. Griffin’s treatment of patients and her attempts to get
properly reimbursed by the patients’ health plans.1
1 See Griffin v. Blue Cross and Blue Shield Healthcare Plan ofGa., Inc., et al, No. i:i4-cv-i6ioAT (N.D. Ga. filed May 28, 2014); Griffin v. S. Co. Servs., Inc., No. i:i5-cv-oii5-AT (N.D. Ga.
filed Jan. 14, 2015); Griffin v. SunTrust Bank, Inc., No. i:i5-cv-oi47-AT (N.D. Ga. filed Jan. 16,
2015); Griffin v. FOCUS Brands Inc., No. i:is-cv-oi70-AT (N.D. Ga. filed Jan. 20, 2015); Griffin
v. Health Sys. Mgmt., Inc., No. U15-CV-0171-AT (N.D. Ga. filed Jan. 20, 2015); Griffin v.
Lockheed Martin Corp., No. H15-CV-0267-AT (N.D. Ga. filed Jan. 28, 2015); Griffin v. Gen.
Mills, Inc., No. i:i5-cv-0268-AT (N.D. Ga. filed Jan. 28, 2015); Griffin v. Oldcastle, Inc., No.
i:i5-cv-0269-AT (N.D. Ga. filed Jan 28, 2015); Griffin v. Habitat for Humanity Inti, Inc., No.

Case l:17-cv-04656-AT Document 9 Filed 01/02/18 Page 2 of 5

In the present case, Dr. Griffin brings four different ERISA claims against
Defendants arising from her treatment of “Patient J.J.” in December 2012.
(Amended Complaint, Doc. 1-111 20-21.) Her four claims include: failure to pay
plan benefits under 29 U.S.C. § 1132 (Count 1); breach of fiduciary duty under 29
U.S.C. § 1104 (Count 2); failure to produce plan documents under 29 U.S.C. §§
1024(b), 1104, and 1132(2) (Count 3); and breach of co-fiduciary duties under 29
U.S.C. § 1105(a)(2) (Count 4).
As Defendants point out in their motion to dismiss, the Court has already
dismissed these same sorts of ERISA claims against other defendants due to clear
and unambiguous anti-assignment provisions. Here, the Plan Document states
as follows:
9.02 Assignment.
If applicable, an Enrolled Person may authorize the Plan to directly
pay the service provider or hospital that provided the Enrolled
i:i5-cv-0369-AT (N.D. Ga. filed Jan 28, 2015); Griffin u. Verizon Commc’ns, Inc., No. i:i5-cv0569-AT (N.D. Ga. filed Feb. 26, 2015); Griffin v. Humana Employers Health Plan ofGa., Inc.,
No. i:i5-cv-3574-AT (N.D. Ga. filed Oct. 8, 2015); Griffin v. Aetna Health Inc., et al, No. 1:15cv-3750-AT (N.D. Ga. filed Oct. 26, 2015); Griffin v. General Electric Co., No. i:i5-cv-4439-AT
(N.D. Ga. filed Dec. 22, 2015); Griffin v. Navistar, Inc., No. i:i6-cv-oi90-AT (N.D. Ga. filed Jan.
21, 2016); Griffin v. Humana Employers Health Plan of Georgia, Inc., No. H16-CV-0245-AT
(N.D. Ga. filed Jan. 26, 2016); Griffin v. Coca-Cola Enterprises, Inc., No. i:i6-cv-0389-AT (N.D.
Ga. filed Feb. 9, 2016); Griffin v. Sevatec, Inc., No. i:i6-cv-0390-AT (N.D. Ga. filed Feb. 9,
2016); Griffin v. Cassidy Turley Commercial Real Estate Services, Inc., No. i:i6-cv-0496-AT
(N.D. Ga. filed Feb. 17, 2016); Griffin v. Americold Logistics, LLC, No. i:i6-cv-0497-AT (N.D.
Ga. filed Feb. 17, 2016); Griffin v. Applied Industrial Technologies, Inc., No. i:i6-cv-0552-AT
(N.D. Ga. filed Feb. 23, 2016); Griffin v. Areva, Inc., No. i:i6-cv-0553-AT (N.D. Ga. filed Feb.
23, 2016); Griffin v. FOCUS Brands, Inc., No. i:i6-cv-079i-AT (N.D. Ga. filed Mar. 10, 2016);
Griffin v. Northside Hospital, Inc., No. i:i6-cv-1934-AT (N.D. Ga. filed June 10, 2016); Griffin
v. Crestline Hotels & Resorts, LLC, No. i:i6-cv-2022-AT (N.D. Ga. filed June 16, 2016); Griffin
v. Verizon Communications, Inc., No. i:i6-cv-2639 (N.D. Ga. filed July 20, 2016); Griffin v.
RightChoice Managed Care, Inc., et al, No. i:i6-cv-3102 (N.D. Ga. filed Aug. 23, 2016); Griffin
v. Aetna Health Inc., et al, No. i:i7-cv-00077 (N.D. Ga. filed Jan. 6, 2017); Griffin v. United
Healthcare of Georgia, Inc., et al, No. i:i7-cv-456i-AT (N.D. Ga. filed Nov. 13, 2017); Griffin v.
Delta Air Lines, Inc., etal, No. 1:17-^-4657-AT (N.D. Ga. Nov. 20, 2017).
2

Case l:17-cv-04656-AT Document 9 Filed 01/02/18 Page 3 of 5

Person’s covered care and treatment. Except as provided in the
foregoing sentence, and subject to Section 9.06 of this Plan relating
to Qualified Medical Child Support Orders, an Enrolled Person may
not assign or alienate any payment with respect to any Benefit which
an Enrolled Person is entitled to receive from the Plan, and further,
except as may be prescribed by law, no Benefits shall be subject to
attachment or garnishment of or for an Enrolled Person’s debts or
contracts, except for recovery of overpayments made on an Enrolled
Person’s behalf by this Plan.
(Plan Document, Doc. 3-1 at 25.)* The Plan Document further states that it
incorporates by reference the Summary Plan Descriptions and Benefit Policies
document (“SPD”), which was attached to the Plan as Appendix E. {Id. at 1; SPD,
Doc. 3-2.) The SPD provides additional clarification about a plan member’s
assignment of benefits:
While benefits payable at any time may be used to make direct
payments to health care providers, no amount payable at any time
shall be subject in any matter to alienation by assignment of any
kind. Any attempt to assign any such amount shall be void.
(SPD, Doc. 3-2 at 46.) Together, these two anti-assignment provisions clearly
apply to Dr. Griffin’s Count 1 against Defendants for their failure to pay plan
benefits. Plaintiff merely alleges that she “requires patients to assign his or her
health insurance benefits and rights to sue” and that she “received an assignment
of benefits for every claim at issue in this litigation.” (Amended Complaint, Doc.

2 On a motion to dismiss, the Court accepts the well-pleaded allegations in the Amended
Complaint as true and views them in the light most favorable to Dr. Griffin. The Court also
considers the Plan Document and SPD (attached to Defendants’ Motion to Dismiss) and Dr.
Griffin’s assignment agreements with Patient J.J. (attached to Plaintiffs Response), as these
documents are central to the Amended Complaint and their contents are not in dispute. See
Harris v. Ivax Corp., 182 F.3d 799, 802 n. 2 (11th Cir. 1999).
3

Case l:17-cv-04656-AT Document 9 Filed 01/02/18 Page 4 of 5

l-i H 3.) Thus, Plaintiffs Count 1 is barred by the health plan’s anti-assignment
provisions, and Count 1 is dismissed.
It is less clear whether the anti-assignment provisions - which solely
discuss the payment of benefits - apply to Dr. Griffin’s other non-paymentrelated claims (i.e., Counts 2, 3, and 4).

Yet even if the anti-assignment

provisions do not bar these other claims, Plaintiffs original assignment
agreement, dated December 21, 2012, does not include the right to bring such
claims. (See Doc. 7, Ex. A at 8.) Plaintiff cannot sue for these claims under
ERISA since Patient J.J. never assigned her the right to do so. See, e.g., Griffin v.
Verizon Commc’ns, Inc., 641 F. App’x 869, 873 n.i (11th Cir. 2016) (“[T]he
assignments contained no provision transferring the insureds’ right to assert
claims for breach of fiduciary duty or civil penalties. Because the insureds never
assigned to Dr. Griffin the right to bring such claims, she lacks derivative
standing to bring these claims under section 502 of ERISA.”).
Additionally, Plaintiff cannot rely on a retroactive assignment of benefits to
save Counts 2, 3, and 4.

Plaintiff attached to her Response an updated

assignment agreement, dated July 26, 2017, stating that Patient J.J. assigns
Plaintiff the right to bring claims not only for payment but also for statutory
penalties, etc. (See Doc. 7, Ex. C.) Plaintiff argues that the updated assignment
agreement retroactively applies to her original assignment agreement, and
therefore she has the right to bring Counts 2, 3, and 4 in this action. However,
“[although Georgia law allows contracts to have retroactive effect between the
4

Case l:17-cv-04656-AT Document 9 Filed 01/02/18 Page 5 of 5

parties to the contract, the retroactive date is not effective against third parties to
the agreement.” Minnifield v. Johnson & Freedman, LLC, 448 F. App’x 914, 916
(11th Cir. 2011).

Neither Defendant is a party to the updated assignment

agreement between Plaintiff and Patient J.J., meaning Defendants are third
parties to the agreement. Thus, Plaintiffs updated assignment agreement does
not take retroactive effect against Defendants, and she does not have a valid
assignment of the right to bring Counts 2, 3, and 4 against them.

These

remaining three claims are dismissed as well.
For the reasons stated above, the Court GRANTS Defendants’ Motion to
Dismiss [Doc. 3]. This case is DISMISSED, and the Clerk is DIRECTED to
close the case.
IT IS SO ORDERED this 2nd day of January, 2018.

Amy*totenberg
United States District Judge

5

I

I

Case l:17-cv-04657-AT Document 9 Filed 01/02/18 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
W. A. GRIFFIN, MD
CIVIL ACTION FILE

Plaintiff,
vs.

NO. 1:17-cv-4657-AT

DELTA AIR LINES, INC. and UNITED
HEALTHCARE INSURANCE COMPANY
Defendants.

JUDGMENT
This action having come before the Court, the Honorable Amy Totenberg, United States
District Judge, for consideration of the defendants' motion to dismiss, and the Court having
granted said motion, it is
Ordered and Adjudged that this civil action is DISMISSED.

Dated at Atlanta, Georgia, this 2nd day of January, 2018.
JAMES N. HATTEN
CLERK OF COURT
By:

Prepared and Entered
in the Clerk's Office
January 2, 2018
James N. Hatten
Clerk of Court
Bv: s/ James Jarvis
Deputy Clerk

s/ James Jarvis
Deputy Clerk

Case l:17-cv-04657-AT Document 8 Filed 01/02/18 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
W. A. GRIFFIN, MD,
Plaintiff,
v.

CIVIL ACTION NO.
i:17-CV-4657-AT

DELTA AIR LINES, INC., etal,
Defendants.
ORDER
This action arises under the Employee Retirement Income Security Act
(“ERISA”), 29 U.S.C. 1001 et seq. It is before the Court on Defendants’ Motion to
Dismiss Plaintiffs Amended Complaint [Doc. 2].
Plaintiff W.A. Griffin, MD (“Dr. Griffin”) is a medical provider in Atlanta,
Georgia. Over the last four years, she has filed more than two dozen cases either
directly in this Court or in state court that were later removed to this Court.
These cases arise from Dr. Griffin’s treatment of patients and her attempts to get
properly reimbursed by the patients’ health plans.1
1 See Griffin v. Blue Cross and Blue Shield Healthcare Plan ofGa., Inc., et al, No. H14-CV-1610AT (N.D. Ga. filed May 28, 2014); Griffin v. S. Co. Servs., Inc., No. i:i5-cv-oii5-AT (N.D. Ga.
filed Jan. 14, 2015); Griffin v. SunTrust Bank, Inc., No. i:i5-cv-oi47-AT (N.D. Ga. filed Jan. 16,
2015); Griffin v. FOCUS Brands Inc., No. i:i5-cv-0i70-AT (N.D. Ga. filed Jan. 20, 2015); Griffin
v. Health Sys. Mgmt., Inc., No. i:i5-cv-oi7i-AT (N.D. Ga. filed Jan. 20, 2015); Griffin v.
Lockheed Martin Corp., No. i:i5-cv-0267-AT (N.D. Ga. filed Jan. 28, 2015); Griffin v. Gen.
Mills, Inc., No. H15-CV-0268-AT (N.D. Ga. filed Jan. 28, 2015); Griffin v. Oldcastle, Inc., No.
i:i5-cv-0269-AT (N.D. Ga. filed Jan 28, 2015); Griffin u. Habitat for Humanity Inti, Inc., No.

Case l:17-cv-04657-AT Document 8 Filed 01/02/18 Page 2 of 5

In the present case, Dr. Griffin brings four different ERISA claims against
Defendants arising from her treatment of “Patient G.A.” in March 2015.
(Amended Complaint, Doc. 1-11 20.) Her four claims include: failure to pay plan
benefits under 29 U.S.C. § 1132 (Count 1); breach of fiduciary duty under 29
U.S.C. § 1104 (Count 2); failure to produce plan documents under 29 U.S.C. §§
1024(b), 1104, and 1133(2) (Count 3); and breach of co-fiduciary duties under 29
U.S.C. § 1105(a)(2) (Count 4).
As Defendants point out in their motion to dismiss, the Court has already
dismissed these same sorts of ERISA claims against other defendants due to clear
and unambiguous anti-assignment provisions. Here, the Plan Document states
as follows:
13.07 Anti-Alienation of Benefits. Except as required by law, no
benefit, payment or distribution under the Plan shall be subject to
the claim of any creditor of the Participant, or to any legal process by
i:i5-cv-0369-AT (N.D. Ga. filed Jan 28, 2015); Griffin v. Verizon Commc’ns, Inc., No. K15-CV0569-AT (N.D. Ga. filed Feb. 26, 2015); Griffin v. Humana Employers Health Plan ofGa., Inc.,
No. i:i5-cv-3574-AT (N.D. Ga. filed Oct. 8, 2015); Griffin v. Aetna Health Inc., et al, No. 1:15cv-3750-AT (N.D. Ga. filed Oct. 26, 2015); Griffin u. General Electric Co., No. U15-CV-4439-AT
(N.D. Ga. filed Dec. 22, 2015); Griffin v. Navistar, Inc., No. i:i6-cv-oi90-AT (N.D. Ga. filed Jan.
21, 2016); Griffin v. Humana Employers Health Plan of Georgia, Inc., No. i:i6-cv-0245-AT
(N.D. Ga. filed Jan. 26, 2016); Griffin v. Coca-Cola Enterprises, Inc., No. U16-CV-0389-AT (N.D.
Ga. filed Feb. 9, 2016); Griffin v. Sevatec, Inc., No. i:i6-cv-0390-AT (N.D. Ga. filed Feb. 9,
2016); Griffin v. Cassidy Turley Commercial Real Estate Services, Inc., No. i:x6-cv-0496-AT
(N.D. Ga. filed Feb. 17, 2016); Griffin v. Americold Logistics, LLC, No. i:i6-cv-0497-AT (N.D.
Ga. filed Feb. 17, 2016); Griffin v. Applied Industrial Technologies, Inc., No. i:i6-cv-0552-AT
(N.D. Ga. filed Feb. 23, 2016); Griffin v. Areva, Inc., No. i:i6-cv-0553-AT (N.D. Ga. filed Feb.
23, 2016); Griffin v. FOCUS Brands, Inc., No. U16-CV-0791-AT (N.D. Ga. filed Mar. 10, 2016);
Griffin v. Northside Hospital, Inc., No. i:i6-cv-i934-AT (N.D. Ga. filed June 10, 2016); Griffin
v. Crestline Hotels & Resorts, LLC, No. i:i6-cv-2022-AT (N.D. Ga. filed June 16, 2016); Griffin
v. Verizon Communications, Inc., No. i:i6-cv-2639 (N.D. Ga. filed July 20, 2016); Griffin v.
RightChoice Managed Care, Inc., et al, No. i:i6-cv-3102 (N.D. Ga. filed Aug. 23, 2016); Griffin
v. Aetna Health Inc., et al, No. i:i7-cv-00077 (N.D. Ga. filed Jan. 6, 2017); Griffin v. United
Healthcare of Georgia, Inc., et al, No. i:i7-cv-456i-AT (N.D. Ga. filed Nov. 13, 2017); Griffin v.
Coca-Cola Refreshments USA, Inc., et al, No. i:i7-cv-46s6-AT (N.D. Ga. filed Nov. 20, 2017).
2

Case l:17-cv-04657-AT Document 8 Filed 01/02/18 Page 3 of 5

any creditor of the Participant, and the participant shall not have any
right to alienate, commute, anticipate or assign (either at law or in
equity) all or any portion of any benefit, payment or distribution
under the Plan except to the extent provided herein; provided,
however, a Participant may make a voluntary and revocable
assignment, but only for such purposes as the Administrative
Committee may from time to time specify.
(Plan Document, Doc. 2~i at 36.)2 The Plan Document further states that it
incorporates by reference the Handbook (also referred to as the Summary Plan
Description for the Plan).

{Id, at 4; Handbook, Doc. 3-2.) The Handbook

provides additional clarification about a plan member’s assignment of benefits:
Assignment of Benefits
Except as required by law, no benefit, payment or distribution under
the plans will be subject to the claim of any creditor of a participant,
or to any legal process by any creditor of the participant, and the
participant will not have any right to alienate, commute, anticipate
or assign all or any portion of any benefit, payment or distribution
under the plans.
However, a participant may make a voluntary and revocable
assignment, but only for such purposes as the Plan Administrator
may specify from time to time.
(Handbook, Doc. 3-2 at 285.)
Together, these two anti-assignment provisions clearly apply to Dr.
Griffin’s Count 1 against Defendants for their alleged failure to pay plan benefits,
as well as Counts 2, 3, and 4 for their alleged breach of other benefits (i.e.,
fiduciary and statutory duties owed to members of the health plan). Plaintiff
2 On a motion to dismiss, the Court accepts the well-pleaded allegations in the Amended
Complaint as true and views them in the light most favorable to Dr. Griffin. The Court also
considers the Plan Document and Handbook (attached to Defendants’ Motion to Dismiss) and
Dr. Griffin’s assignment agreements with Patient G.A. (attached to Plaintiffs Response), as
these documents are central to the Amended Complaint and their contents are not in dispute.
See Harris v. Ivax Corp., 182 F.3d 799, 802 n. 2 (11th Cir. 1999).

3

Case l:17-cv-04657-AT Document 8 Filed 01/02/18 Page 4 of 5

merely alleges that she “requires patients to assign his or her health insurance
benefits and rights to sue” and that she “received an assignment of benefits for
every claim at issue in this litigation.” (Amended Complaint, Doc. l-i 1 3.) She
does not allege that she received an assignment of benefits from Patient G.A.
according to “such purposes as the Plan Administrator may specify from time to
time.” (Handbook, Doc. 3-2 at 285.) The Amended Complaint says nothing of
the Plan Administrator allowing the particular assignment at issue in this matter
or these types of assignments generally. Thus, all four of Plaintiffs claims are
barred by the health plan’s anti-assignment provisions.
Furthermore, even if the anti-assignment provisions do not bar Plaintiffs
non-payment-related claims (i.e., Counts 2, 3, and 4), Plaintiffs original
assignment agreement, dated March 31, 2015, does not include the right to bring
such claims. (See Doc. 6, Ex. A at 21.) Plaintiff cannot sue for these claims under
ERISA since Patient G.A. never assigned her the right to do so. See, e.g., Griffin
v. Verizon Commc’ns, Inc., 641 F. App’x 869, 873 n.i (11th Cir. 2016) (“[T]he
assignments contained no provision transferring the insureds’ right to assert
claims for breach of fiduciary duty or civil penalties. Because the insureds never
assigned to Dr. Griffin the right to bring such claims, she lacks derivative
standing to bring these claims under section 502 of ERISA.”).
Additionally, Plaintiff cannot rely on a retroactive assignment of benefits to
save Counts 2, 3, and 4.

Plaintiff attached to her Response an updated

assignment agreement, dated August 7, 2017, stating that Patient G.A. assigns
4

Case l:17-cv-04657-AT Document 8 Filed 01/02/18 Page 5 of 5

Plaintiff the right to bring claims not only for payment but also for statutory
penalties, etc. (See Doc. 6, Ex. C.) Plaintiff argues that the updated assignment
agreement retroactively applies to her original assignment agreement, and
therefore she has the right to bring Counts 2, 3, and 4 in this action. However,
“[although Georgia law allows contracts to have retroactive effect between the
parties to the contract, the retroactive date is not effective against third parties to
the agreement.” Minnifield v. Johnson & Freedman, LLC, 448 F. App’x 914, 916
(11th Cir. 2011).

Neither Defendant is a party to the updated assignment

agreement between Plaintiff and Patient G.A., meaning Defendants are third
parties to the agreement. Thus, Plaintiffs updated assignment agreement does
not take retroactive effect against Defendants, and she does not have a valid
assignment of the right to bring Counts 2, 3, and 4 against them.

These

remaining three claims are dismissed on this basis as well.
For the reasons stated above, the Court GRANTS Defendants’ Motion to
Dismiss [Doc. 2]. This case is DISMISSED, and the Clerk is DIRECTED to
close the case.
IT IS SO ORDERED this 2nd day of January, 2018.

2=

Amj^Totenberg
United States District Judge

5

